Lm
I

C@OQCKLE

2311 Douglas Street ief E-Mail Address:
Omaha, Nebraska 68102-1214 L € 8 a | B Exige. contact@cocklelegalbriefs.com
1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850 No.
MARY LOUISE SERAFINE,
Petitioner,

v.
KARIN CRUMP, In her Individual and Official Capacities
as Presiding Judge of the 250th/200th Civil District Court
of Travis County, Texas; LORA J. LIVINGSTON,
In her Official Capacity as Presiding Judge of the
26 Ist/200th Civil District Court of Travis County, Texas;
DAVID PURYEAR, In his Individual and Official
Capacities as Justice of the Third Court of Appeals at
Austin, Texas; MELISSA GOODWIN, In her Individual
and Official Capacities as Justice of the Third Court
of Appeals at Austin, Texas; BOB PEMBERTON,
In his Individual and Official Capacities as Justice of
the Third Court of Appeals at Austin, Texas,
Respondents.

AFFIDAVIT OF SERVICE
I, Andrew Cockle, of lawful age, being duly sworn, upon my oath state that I did, on the 14th day of August, 2020, send out

from Omaha, NE 3 package(s) containing 3 copies of the PETITION FOR WRIT OF CERTIORARI in the above entitled
case. All parties required to be served have been served by Priority Mail. Packages were plainly addressed to the following:

SEE ATTACHED

To be filed for:

MARY LOUISE SERAFINE
Attorney & Counselor at Law
PO Box 4342,

Austin, TX 78765
Tele: 512.220.5452
serafine@mlserafine.com

JOHN W. VINSON
Counsel of Record
JOHN W. VINSON, PLLC
PO Box 301678,

Austin, TX 78703
Tele/Fax: 512.926.7380
johnvinsonatty@yahoo.com

Counsel for Petitioner

Subscribed and sworn to before me this 14th day of August, 2020.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY State of Nebraska ( ee drau~ CL
RENEE J. GOSS .

My Comm. Exp. September 5, 2023,

 

 

Notary nee. 0. Affiant 40033
SERVICE LIST

Courtney Corbello, Esq., Assistant Attorney General
courtney.corbello@oag.texas.gov

Law Enforcement Defense Division

Office of the Attorney General

P.O. Box 12548, Capitol Station

Austin, Texas 78711

(512) 463-2080 / Fax (512) 370-9374

Attorneys for Defendants the Hon. David Puryear,
the Hon. Melissa Goodwin, the Hon. Bob Pemberton

Anthony J. Nelson, Esq.
tony.nelson@traviscountytx.gov

Patrick Pope, Esq.
patrick.pope@traviscountytx.gov

Office of David A. Escamilla,

Travis County Attorney

P. O. Box 1748

Austin, Texas 78767

(512) 854-9415/ Fax (512) 854-4808
Attorneys for Defendant the Hon. Karin Crump

As Notice to Interested Party**

Mr. Brent McCabe, Esq.

Staff attorney to the Honorable Lora J. Livingston
brent.mccabe@traviscountytx.gov

Chambers of the Honorable Lora J. Livingston
261st District Court

P.O. Box 1748

Austin, TX 78767

(512) 854-9625

** As to a recent part of the case, Judge Lora J. Livingston, by appointment, replaced Judge
Karin Crump. In compliance with Supreme Court Rule 35-3, Judge Livingston is included in the
caption in official capacity only. See Rule 35-3 (“[A]ny successor in office is automatically
substituted as a party. [] Proceedings following the substitution shall be in the name of the
substituted party”).
